      Table of Contents

Introduction……………………………………………………..2


Universal Service Fund……………………………………….4


Audits……………………………………………………………..13


Management…………………………………………………….38


Investigations………………………………………………….39


Legislation……………………………………………………….42


IG Hotline………………………………………………………..43


Specific Reporting Requirements of the
Inspector General Act……………………………………….45


OIG Reports With Questioned Costs……………………48




                      1
                   Introduction
The Federal Communications Commission (FCC) is an independent
regulatory agency, which was delegated authority by Congress under
the Communications Act of 1934, as amended by the
Telecommunications Act of 1996. The FCC is charged with the
regulation of interstate and international communication by radio,
television, wire, satellite and cable. The FCC’s jurisdiction covers the
fifty states, the District of Columbia and all the U.S. possessions.
Under the Communications Act, the FCC is mandated to make rapid,
efficient, nationwide and worldwide wire and radio communication
service available to all people in its jurisdiction. The FCC performs four
major functions to fulfill this charge:

•   Spectrum allocation
•   Creating rules to promote fair competition and protect consumers
    where required by market conditions
•   Authorization of service
•   Enforcement

The Chairman and four Commissioners are appointed by the President
and confirmed by the Senate.

Michael K. Powell was designated Chairman on January 22, 2001. Kath-
leen Q. Abernathy, Jonathan S. Adelstein, Michael J. Copps and Kevin J.
Martin serve as Commissioners. The majority of FCC
employees are located in Washington, D.C. FCC field offices and
resident agents are located throughout the United States. FCC
headquarters staff are located in the Portals II building located at 445
12th St., S.W., Washington, D.C. 20554.

The Office of Inspector General (OIG) dedicates itself to assisting the
Commission as it continues to improve its effectiveness and efficiency.
The Inspector General (IG), H. Walker Feaster III, reports directly to
the Chairman. The OIG staff consists of eleven professionals and a
student intern. Principal assistants to the IG are: Thomas Cline,
Assistant Inspector General (AIG) for Audits; Thomas Bennett, AIG for
Universal Service Fund Oversight; Charles J. Willoughby, AIG for
Investigations; and Thomas M. Holleran, AIG for Policy and Planning.


                                    2
                  Introduction
Mr. Willoughby also serves as counsel.

This semiannual report includes the major accomplishments and
general activities of the OIG during the period of April 1, 2004 through
September 30, 2004.




                                   3
     Universal Service Fund
    Independent Oversight of the Universal Service Fund (USF)

Beginning with our semiannual report for the period ending March 31,
2002, we have included a section highlighting our efforts to implement
effective, independent oversight of the Universal Service Fund (USF)1.
We decided that it was necessary to highlight our efforts to provide in-
dependent oversight of the USF to ensure that Congress and other re-
cipients of our semiannual report clearly understood our concerns
about this program. We have also used this section of the report to
identify obstacles to the effective implementation of our oversight pro-
gram. Due to materiality and our assessment of audit risk, we have fo-
cused much of our attention on the USF mechanism for funding tele-
communications and information services for schools and libraries, also
known as the “Schools and Libraries Program” or the “E-rate” program.

I am pleased to report that concerns that we have raised about the E-
rate program have received considerable attention during the reporting
period. Most notably, on August 4, 2004, the Commission adopted the
Fifth Report and Order on the Schools and Libraries Universal Support
Mechanism. In the Fifth Report and Order, the Commission resolved a
number of issues arising from audits of the E-rate program and pro-
grammatic concerns raised by my office. In the introduction to the
Fifth Report and Order, the Commission included the following state-
ment regarding actions taken in the order:

        First, we set forth a framework regarding what amounts should
        be recovered by the Universal Service Administrative Company
        (USAC or Administrator) and the Commission when funds have
        been disbursed in violation of specific statutory provisions and
        Commission rules. Second, we announce our policy regarding
        the timeframe in which USAC and the Commission will conduct
        audits or other investigations relating to use of E-rate funds.
1
    The USF is generated through contributions from providers of interstate telecom-
     munications, including local and long distance phone companies, wireless and
     paging companies and pay phone providers. The Universal Service Administrative
     Company (USAC) administers the USF under regulations promulgated by the Fed-
     eral Communications Commission (FCC).



                                          4
    Universal Service Fund
      Third, we eliminate the current option to offset amounts dis-
      bursed in violation of the statute or a rule against other funding
      commitments. Fourth, we extend our red light rule previously
      adopted pursuant to the Debt Collection Improvement Act (DCIA)
      to bar beneficiaries or service providers from receiving additional
      benefits under the schools and libraries program if they have
      failed to satisfy any outstanding obligation to repay monies into
      the fund. Fifth, we adopt a strengthened document retention re-
      quirement to enhance our ability to conduct all necessary over-
      sight and provide a stronger enforcement tool for detecting statu-
      tory and rule violations. Sixth, we modify our current require-
      ments regarding the timing, content and approval of technology
      benefits. Seventh, we amend our beneficiary certification re-
      quirements to enhance our oversight and enforcement activities.
      Eighth, we direct USAC to submit a plan for timely audit resolu-
      tion, and we delegate authority to the Chief of the Wireless Com-
      petition Bureau to resolve audit findings. Finally, we direct USAC
      to submit on an annual basis a list of all USAC administrative pro-
      cedures to the Wireline Competition Bureau (Bureau) for review
      and further action, if necessary, to ensure that such procedures
      effectively serve our objective of preventing waste, fraud and
      abuse.

                       Congressional Hearings

The Subcommittee on Oversight and Investigations of the House Com-
mittee on Energy and Commerce conducted three hearings during the
reporting period related to waste, fraud and abuse in the E-rate pro-
gram. The FCC Inspector General testified before the Subcommittee in
two of these hearings and the OIG assisted congressional staff in
preparation for the third hearing.



Subcommittee on Oversight and Investigations – June 17, 2004

On June 17, 2004, the Subcommittee on Oversight and Investigations
held their first hearing on E-rate fraud, waste and abuse. The focus of


                                    5
    Universal Service Fund
this hearing was to discuss fraud, waste and abuse in the context of
Puerto Rico Department of Education (PRDOE) participation in the pro-
gram. The Inspector General testified in the first panel with the Honor-
able Manuel Díaz Saldana, Comptroller - Commonwealth of Puerto Rico.
A second panel included representatives from PRDOE and their E-rate
service providers and a third panel included representatives from the
FCC and Universal Service Administrative Company (USAC).

In his testimony, the Inspector General provided a brief summary of
OIG involvement in USF oversight, discussed specific actions with re-
spect to PRDOE’s involvement in the E-rate program, and discussed, in
general terms, concerns that the OIG has with the E-rate program. The
Inspector General discussed the following general concerns highlighted
by PRDOE’s involvement in the program:

•   Resolution of Audit Findings and Fund Recoveries;
•   Rules Governing Competitive Procurement;
•   Delivery of Goods and Services; and
•   Reliance on Applicant Certifications.

In addition, the Inspector General discussed the following general con-
cerns resulting from OIG involvement in E-rate audits and investiga-
tions:

•   Program Design and Beneficiary Compliance;
•   Applicant Technology Planning;
•   Discount Calculation; and
•   Payment of the Non-Discount Portion.

Subcommittee on Oversight and Investigations – July 22, 2004

On July 22, 2004, the Subcommittee on Oversight and Investigations
held their second hearing on E-rate fraud, waste and abuse. The focus
of this hearing was to discuss fraud, waste and abuse related to NEC
Business Network Solutions, Inc. (NEC-BNS) participation in the E-rate
program. In May 2004, NEC-BNS agreed to plead guilty to bid rigging
and wire fraud and agreed to pay a $20.6 million criminal fine, civil set-


                                    6
    Universal Service Fund
tlement and restitution. NEC-BNS was charged with allocating con-
tracts and rigging bids for E-rate projects at five different school dis-
tricts in Michigan, Wisconsin, Arkansas, and South Carolina, in violation
of the Sherman Antitrust Act. NEC-BNS was also charged with wire
fraud by entering into a scheme to defraud the E-rate program and the
San Francisco Unified School District by inflating bids, agreeing to sub-
mit false and fraudulent documents to hide the fact that it planned on
installing ineligible items, agreeing to donate “free” items that it
planned to bill E-rate for, and submitting false and fraudulent docu-
ments to defeat inquiry into the legitimacy of the funding request.

The OIG did not participate in this hearing. However, as a result of our
involvement in supporting the investigation that resulted in this plea
agreement, the OIG provided assistance to congressional staff in
preparation for this hearing.

Subcommittee on Oversight and Investigations – September 22, 2004

On September 22, 2004, the Subcommittee on Oversight and Investi-
gations held their third hearing on E-rate fraud, waste and abuse. The
focus of this hearing was to follow-up on issues discussed in the July
22, 2004 hearing about NEC-BNS. An additional objective was to re-
view IBM’s participation in the E-rate program as a service provider.
The Inspector General testified in the first panel with Jeff Carlisle, Chief
of the FCC Wireline Competition Bureau, and George McDonald, Vice
President of the Schools and Libraries Division of USAC. A second
panel included representatives from NEC-BNS and other service provid-
ers that participated with NEC-BNS as well as officials from school dis-
tricts that did business with NEC-BNS. The third panel included repre-
sentatives from IBM, and other service providers that worked with IBM
as well as representatives from school districts that did business with
IBM.

In his testimony, the Inspector General provided a brief summary of
OIG’s involvement in the investigations of NEC-BNS and IBM and dis-
cussed the programmatic concerns raised by these investigations. The
Inspector General discussed the following concerns highlighted by


                                     7
    Universal Service Fund
these investigations:

•   Rules Governing Competitive Procurement; and
•   Reliance on Applicant Certifications.

               OIG Audits Using Internal Resources

We completed five audits using internal resources during the reporting
period. For the five audits that were completed, we concluded that ap-
plicants were compliant with program rules in one of the audits and
that the applicants were not compliant with program rules in four of the
audits. For the four audits where we determined that applicants were
not compliant, we have recommended recovery of $1,576,350. Two of
the audits—Southern Westchester Board Of Cooperative Educational
Services (BOCES) and United Talmudical Academy— were randomly se-
lected as part of our beneficiary audit program. The other three au-
dits—Children’s Store Front School, St. Augustine School, and Annun-
ciation Elementary School—were conducted at the request of federal
law enforcement.

Please refer to the audit report section of the semi-annual report for
detailed information regarding E-rate audits completed during the re-
porting period.




                                   8
   Universal Service Fund
 Report          Applicant               Conclusion     Potential Fund
  Date                                                    Recovery

 04/06/    Children’s Store Front       Not Compliant          491,447
   04      School

 05/19/    St. Augustine School         Not Compliant           21,600
   04

 05/25/    Southern Westchester         Compliant                    0
   04      BOCES

 06/07/    United Talmudical            Not Compliant          934,300
   04      Academy

 08/12/    Annunciation Elemen-         Not Compliant          129,003
   04      tary School
                                        Total……………..        $1,576,350


Audits Conducted by Other Federal Offices of Inspector General

On January 29, 2003, we executed a Memorandum of Understanding
(MOU) with the Department of the Interior (DOI) OIG. This MOU is a
three-way agreement among the Commission, DOI OIG, and USAC for
audits of schools and libraries funded by the Bureau of Indian Affairs
and other universal service support beneficiaries under the audit cog-
nizance of DOI OIG. Under the agreement, auditors from DOI OIG
perform audits for USAC and the FCC OIG. In addition to audits of
schools and libraries, the agreement allows for the DOI OIG to con-
sider requests for investigative support on a case-by-case basis. Dur-
ing the reporting period, we issued three draft reports and completed
fieldwork on two additional audits.

We have also established a working relationship with the Office of In-
spector General at the Education Department (Education OIG). In


                                    9
   Universal Service Fund
January 2004, Education OIG presented a plan for an audit of telecom-
munication services at the New York City Department of Education
(NYCDOE). Because of the significant amount of E-rate funding for
telecommunication services at NYCDOE, Education OIG has proposed
that they be reimbursed for this audit under a three-way MOU similar
to the existing MOU with DOI OIG. In April 2004, the Universal Ser-
vice Board of Directors approved the MOU. In June 2004, the MOU
was signed and the audit was initiated.

                       Review of USAC Audits

We have reviewed work performed by USAC’s Internal Audit Division
and performed the procedures necessary under our audit standards to
rely on that work. In December 2002, USAC established a contract
with a public accounting firm to perform agreed-upon procedures at a
sample of seventy-nine beneficiaries from funding year 2000. The au-
dit program for this review was created with input from the OIG and
the sample of beneficiaries was selected by the OIG. In a departure
from the two previous large-scale E-rate beneficiary audits conducted
by USAC, the agreed-upon procedures being performed under this
contract would be performed in accordance with both the Attestation
Standards established by the American Institute of Certified Public Ac-
countants (AICPA) Standards and Generally Accepted Government Au-
diting Standards, issued by the Comptroller General (GAS 1994 revi-
sion, as amended) (GAGAS). In March 2003, we signed a contract
with a public accounting firm to provide audit support services for USF
oversight to the OIG. The first task order that we established under
this contract was for the performance of those procedures necessary
to determine the degree to which we can rely on the results of that
work (i.e., to verify that the work was performed in accordance with
the AICPA and GAGAS standards). The OIG review team is currently
completing this work.

                     Support to Investigations

In addition to the audit component of our independent oversight pro-
gram, we are providing audit support to a number of investigations of


                                   10
    Universal Service Fund
E-rate recipients and service providers. To implement the investigative
component of our plan, we established a working relationship with the
Antitrust Division of the Department of Justice (DOJ). The Antitrust Di-
vision has established a task force to conduct USF investigations com-
prised of attorneys in each of the Antitrust Division’s seven field offices
and the National Criminal Office. As of the end of the reporting period,
we are supporting twenty-two investigations and monitoring an addi-
tional fifteen investigations.

Significant accomplishments in investigative support during the report-
ing period are as follows:

•   In April 2004, we issued a report summarizing the results of audit
    procedures performed at the request of federal law enforcement in
    support of an on-going investigation. In our report, we identified
    monetary findings in the amount of $1,288,743 related to goods and
    services that were not provided and for which the service provider
    received payment. We also identified several apparent instances of
    noncompliance with program rules. Issues of noncompliance in-
    cluded no approved technology plan, conflict of interest in the com-
    pletion of Form 470, no competitive bidding process, and schools
    not budgeting for, or paying, the non-discounted portion of the cost
    of goods and services provided.
•   In April 2004, five individuals were indicted and four of them were
    arrested in connection with charges of conspiracy, mail fraud, and
    money laundering involving the E-rate program in Milwaukee, WI.
•   In May 2004, NEC-Business Network Solutions Inc. (NEC-BNS), a
    subsidiary of NEC America Inc., entered into a plea agreement as a
    result of this investigation. In that agreement, NEC-BNS agreed to
    plead guilty to one count of wire fraud in violation of 18 U.S.C. §
    1343 and one count of conspiracy to suppress and eliminate compe-
    tition in violation of the Sherman Antitrust Act, 15 U.S.C. § 1. As
    part of the settlement, NEC-BNS agreed to pay $20,685,263 in
    criminal fines, civil settlement, and restitution.
•   In July 2004, we issued a report summarizing the results of audit
    procedures performed at the request of federal law enforcement in
    support of an on-going investigation. In our report, we identified


                                    11
   Universal Service Fund
  monetary findings in the amount of $1,195,250 related to goods and
  services that were not provided, improper product substitutions, im-
  proper state sales tax charges, and failure to reimburse the appli-
  cant under a Billed Entity Applicant Reimbursement (BEAR) invoice.
  We also identified several apparent instances of noncompliance with
  program rules. Issues of noncompliance included schools not budg-
  eting for, or paying, the non-discounted portion of the cost of goods
  and services provided and schools not complying with competitive
  bidding requirements.

                              Conclusion

To date, one-hundred and thirty five targeted and randomly selected
audits have been completed by my office, USAC internal auditors, or
USAC contract auditors in which the auditor reached a conclusion about
beneficiary compliance. Of the 135 audits, auditors determined that
beneficiary was not compliant in 48 audits representing 36% of these
audits. Recommended fund recoveries for those audits where problems
were identified total over $17 million.

As a result of our involvement in E-rate beneficiary audits and as a re-
sult of our involvement in investigations, we continue to be concerned
about fraud, waste and abuse in Universal Service Fund programs. We
remain committed to meeting our responsibility for providing effective
independent oversight of the Universal Oversight Fund program. We
believe we have made significant progress toward our goal of designing
and implementing an effective, independent oversight program. How-
ever, primarily because of a lack of adequate resources, we have been
unable to fully implement our oversight program. We have been work-
ing closely with the Commission to obtain access to necessary re-
sources and the Commission has been very supportive of our efforts to
obtain resources for independent oversight of the USF. As I have
stated previously in my semiannual reports to the Congress, until re-
sources and funding are available to provide adequate independent
oversight for the USF program, we are unable to give the Chairman,
Congress, and the public an appropriate level of assurance that the
program is protected from fraud, waste and abuse.


                                   12
                           Audits
I. Financial statement audits provide practical assurance about
whether the financial statement of an audited agency presents
the financial position, results of operations, and costs in the
standards of generally accepted accounting principles. These
audits are used to decipher whether or not financial information
is presented according to established or stated criteria. These
audits also reveal if the firm’s internal control over financial
reporting and/or safeguarding assets is designed to adequately
fit the firm and if it is fully implemented to achieve the control
objectives.

Audit of the Commission’s FY 2004 Financial Statement

The Federal Communications Commission (FCC) is a covered agency
under the Accountability of Tax Dollars Act of 2002. As a covered
agency, FCC prepares financial statements in accordance with generally
accepted accounting principles per the Government Management Re-
form Act (GMRA) of 1994, which amended the Chief Financial Officers
Act (CFO Act) of 1990, to require annual preparation and audit of or-
ganization wide financial statements of the United States.

The status of this audit activity is reported under “Work-In-Progress”.




                                   13
                           Audits
II. Performance audits are systematic examinations of evidence
for the purpose of providing an independent assessment of the
performance of a government organization, program, activity or
function, in order to provide information to improve public
accountability and facilitate decision-making by parties with
responsibility to oversee or initiate corrective action.

The OIG began contract auditing for the purposes of establishing con-
tract audit oversight and providing accounting and financial advisory
services in connection with the negotiation, administration and settle-
ment of contracts and subcontracts to FCC procurement and contract
administrators. In that capacity the Defense Contract Audit Agency
(DCAA) performs audits, reviews and agreed-upon procedures reviews
of contractors providing goods and services to the FCC. These projects
include labor timekeeping reviews, billing system reviews, forward pric-
ing audits, incurred cost audits, equitable adjustment proposal
audits, etc. throughout the fiscal year.

In addition, OIG staff performs contract audits upon request from FCC’s
Contract and Purchasing Center.

1. Report of Defense Contract Audit Agency (DCAA) on Ernst &
Young LLP (E&Y) FY 2004 Labor Timekeeping Review (Floor
Check) (Audit Report No. 06311-2004R10310009 issued on
April 19, 2004)

The purpose of this floor check was to assure that E&Y’s employees are
performing their assigned jobs and charging their time to appropriate
tasks. The floor checks were conducted on March 10, 2004. The floor
checks determined that the contractor consistently complied with the
established timekeeping system policies. Our floor checks disclosed no
significant deficiencies in the contractor’s timekeeping or labor sys-
tems.




                                   14
                           Audits
2. Defense Contract Audit Agency (DCAA) Report on Ernst &
Young LLP (E&Y) FY 2004 Billing System Audit (Audit Report
No. 06311-2004R17740003 issued on May 3, 2004)

The purpose of this audit was to determine whether the contractor’s
billing procedures are adequately designed for the preparation of cost
reimbursement claims under FCC Contract Number CON00000002.
E&Y is responsible for establishing and maintaining an adequate ac-
counting system for accumulating and billing costs under government
contracts. The audit concluded that E&Y’s billing system is adequate for
billing costs accumulated under FCC Contract Number CON00000002.

III. Program audits assess whether the objectives of both new
and ongoing programs are proper, suitable or relevant, and also
assess compliance with laws and regulations applicable to the
program. This particular type of audit also serves to determine
whether management has reported measures of program
effectiveness that are valid and reliable.

1. Report on Audit of E-rate program at Children’s Storefront
School (Audit Report No. 02-AUD-02-04-025 issued on April 5,
2004)

This E-rate beneficiary audit was conducted as part of our oversight of
the Universal Service Fund. Children’s Storefront School (Children’s) is
an independent, tuition free school that is located in the Harlem section
of New York City. The objective of this audit was to assess the compli-
ance of the beneficiary with the rules and requirements of the Universal
Service Fund (USF) and to identify E-rate program areas that may need
improvement.

We concluded that Children’s was not compliant with the requirements
of the E-rate program for funding year 2000. The audit resulted in four
specific findings and $491,447 identified as potential fund recoveries.
Funds paid out for internal connections and internet access were rec-
ommended for 100% recovery primarily because Children’s did not pay
their non-discounted portion of the costs.


                                   15
                            Audits
The findings of this audit are as follows:

      1. The beneficiary did not pay the non-discounted portion of the
         costs for internal connections and internet access.
      2. The service provider billed and received payment for recurring
         maintenance costs that were not provided during the funding
         year, in an overpayment of $28,014.
      3. The service provider billed and received payment for internet
         access costs that were not provided during the funding year,
         resulting in an overpayment of $20,412.
      4. There was no documented competitive bidding process.

Additionally, we have reported as an “Other Matter” that the system we
observed at Children’s appeared to be underutilized.

We recommended full recovery to Wireline Competition Bureau (WCB)
and Universal Service Administrative Company (USAC) in the amount
of $491,447 in addition to a review of program rules and regulations to
adequately evaluate future applicants and to ensure future procedural
compliance.

2. Report on Audit of the E-rate program at St. Augustine School
(Audit Report No. 02-AUD-02-04-017 issued on May 19, 2004)

The objective of this audit was to assess the compliance of the benefici-
ary with the Universal Service Fund (USF) and to identify program ar-
eas that need improvement. St. Augustine is a parochial school located
in the Bronx borough of New York City. St. Augustine was approved for
a 90% discount rate in Funding Years (FY) 1998-2000. The period of
this audit was for FY’s 1998-2000 covering January 1, 1998 to June 30,
2001. Our audit of St. Augustine revealed that they were not compli-
ant with the rules and regulations of the E-rate program. The audit re-
sulted in four specific findings and $21,600 identified as potential fund
recoveries. The specific audit findings are as follows:

      1. The beneficiary did not pay the entire non-discounted portion
         of the costs for internal connections and internet access.


                                    16
                            Audits
      2. Internal connections equipment purchased with E-rate funds
         were missing and unauthorized substitutions of equipment
         were made, resulting in overpayments of $4,314.
      3. The service provider billed for T-1 internet access provided
         less functional integrated services digital network (ISDN) ser-
         vice, resulting in overpayments of $17,286.
      4. There was no documentation to support a competitive bidding
         process.

Additionally, we have reported as an “Other Matter” that the supporting
documentation for the implementation of and compliance with the E-
rate program at St. Augustine was generally very poor.

We have made recommendations to the Wireline Competition Bureau
(WCB) and Universal Service Administration Company (USAC) to re-
cover $21,600 distributed to the beneficiary. We have recommended
that WCB and USAC take the necessary steps to review funding re-
quests and program rules to adequately protect the interests of the
fund.

3. Report on Audit of the E-rate program at Southern West-
chester Board of Cooperative Educational Services (SWBOCES)
(Audit Report No. 02-AUD-02-04-003 issued May 25, 2004)

The audit objective was to assess compliance of the beneficiary with
rules and regulations of the E-rate program and to identify areas that
are in need of improvement. SWBOCES is a New York state regional
public education collaborative. The purpose of SWBOCES is to provide
shared educational and management services to schools and school
districts in its geographic region, which covers 35 school districts serv-
ing over 100,000 students in the southern half of Westchester County.
The audit was for Funding Year 1999 and the period of the audit was
from July 1, 1999 to June 30, 2000. Our audit of the use of E-rate
funds at SWBOCES disclosed that the beneficiary was compliant with
requirements of the program for Funding Year 1999.




                                    17
                           Audits
4. Report on Audit of the E-rate program at United Talmudical
Academy (UTA) (Audit Report No. 02-AUD-02-04-006 issued on
June 7, 2004)

The audit objective was to assess the beneficiary’s compliance with the
rules and regulations of the E-rate program and to identify areas in
which to improve the program. UTA is a Jewish orthodox school lo-
cated in the Borough of Brooklyn, New York City. The period of our au-
dit was from July 1, 1999 to June 30, 2000 for Funding Year (FY) 1999
of the E-rate program. Our audit concluded that UTA was not compli-
ant with rules and regulations of the E-rate program. The audit re-
sulted in four (4) findings and $934,300 identified as potential fund re-
coveries. The findings are as follows:

      1. The beneficiary has not paid the entire non-discounted portion
         of FY 1999 funding on a timely basis, resulting in a recom-
         mended funding recovery of $934,300.
      2. The service provider billed and received payment for recurring
         monthly maintenance services for wiring and equipment that
         were not provided, resulting in overpayments of $27,478.
      3. There was no documentation to support a competitive bidding
         process.
      4. UTA included ineligible charges for telecommunications ser-
         vices that were inappropriately reimbursed on FCC Form 472
         BEAR Forms.

In addition, we have reported as an “Other Matter” in the audit report
that management controls to monitor purchases of E-rate equipment
and asset inventory records were inadequate to ensure the funds are
being utilized efficiently.

We have made recommendations to the Wireline Competition Bureau
(WCB) and Universal Service Administration Company (USAC) to re-
cover the amount of $934,300 disbursed to UTA in FY 1999. In addi-
tion, we have recommended that WCB and USAC take the necessary
steps to review funding requests and program rules to adequately pro-
tect the interests of the fund.


                                   18
                           Audits
5. Report on Risk Assessment Survey of the Federal Communi-
cations Commission’s Human Capital Management Framework
(Audit Report No. 03-AUD-06-08 issued June 8, 2004)

We designed and conducted this assessment by comparing the Com-
mission’s strategic management of human capital to the following six
Office of Personal Management (OPM) Human Capital Assessment and
Accountability Framework standards and assigned a level of risk of
the Commission not achieving each standard:

     1.   Strategic Alignment
     2.   Workforce Planning & Deployment
     3.   Leadership & Knowledge
     4.   Results-Oriented Performance Culture
     5.   Talent
     6.   Accountability

Job Performance Systems, Inc. (JPS), as tasked by the FCC OIG, con-
ducted a risk assessment of the Human Capital Management Frame-
work (HCMF) as currently employed by the Commission. The assess-
ment was conducted between July 1, 2003 and December 31, 2003.
The intention of this survey was to perform a risk assessment, how-
ever, we have identified areas of the Commission’s HCMF where imme-
diate improvements could be made. Thus, the findings and recommen-
dations will be tracked and monitored in the same manner as audit
findings. The findings of the FCC risk levels when OPM standards are
applied are as follows:

     1.   Strategic Alignment—Low Risk
     2.   Workforce Planning & Development—Medium Risk
     3.   Leadership & Knowledge—Low Risk
     4.   Results-Oriented Performance Culture—High Risk
     5.   Talent—Low Risk
     6.   Accountability—Medium Risk

We found that there was one area of high risk—Results-Oriented Per-
formance and Culture—and two areas of medium risk—Workforce Plan-


                                  19
                          Audits
ning & Development and Accountability—that will require further review
after the Commission implements changes to reduce risk levels in those
areas. In addition, we have made recommendations that should be im-
plemented by the Commission to further develop its human capital
management strategy. The recommendations were as follows:

     1. Compile the Commission’s existing human capital strategies
        into a single comprehensive Human Resources Management
        Strategy and deploy to all employees.
     2. Revise the Commission’s performance appraisal system to effi-
        ciently identify low and high performing employees.
     3. Create a comprehensive system for tracking and measuring
        employees’ progress in accomplishing mission goals and ob-
        jectives.

6. Report on Audit of NBANC Request for Equitable Adjustment
Proposal (Audit Report No. 04-AUD-03-02 issued on June 25,
2004)

The audit objective was to review NBANC’s request for equitable ad-
justment for work performed beyond the scope of the original order.
NBANC submitted an original proposal of $58,439.00 for reimburse-
ment for work performed beyond its 1998 agreement with the Commis-
sion. Due to our initial audit findings, NBANC was unable to provide
documentation necessary to substantiate the increased costs and re-
submitted a revised proposal for $27,990.80. As a result of our audit,
we questioned $30,448.20 of NBANC’s original request of $58,439.00
for the equitable adjustment proposal. The questioned amount repre-
sents the difference between NBANC’s original $58,439.00 proposal
and its $27,990.80 revised proposal. NBANC representatives concurred
with our findings and resubmitted its revised proposal on March 30,
2004. Our results find that NBANC provided adequate support for its
revised proposal and determined it to be adequate for negotiating fair
and reasonable billing rates with the Commission.




                                  20
                           Audits
7. Disaster Plan Recovery Plan Survey (Report No. 03-AUD-12-
27 issued on July 27, 2004)

In the post 9/11 environment, disaster recovery planning and business
continuity are critical. In 2002, the FCC began an intensive effort to
develop a disaster recovery plan (DRP). The OIG conducted a survey
of the DRP process. The objective of this survey was to assess ade-
quacy of the FCC’s DRP and report upon its progress. Another goal
was to determine if the FCC was able to test its DRP during the Federal
government’s “Forward Challenge” test of critical infrastructure protec-
tion (CIP) plans. The FCC has made considerable progress in its DRP
program in 2004. The Chief Information Officer (CIO) and his staff
have developed a comprehensive DRP to support the recovery of IT
systems if an incident disrupts services. The DRP, however, is not
complete. The DRP needs to include how the FCC will handle major ap-
plications in an emergency and must also document how the major ap-
plications will be handled during a disaster. When both of these events
occur, the DRP will be complete. Based on the results of this survey,
additional audit work is not warranted relating to DRP activities.

8. Report on Audit of the E-rate Program at Annunciation Ele-
mentary School (Audit Report No. 02-AUD-02-021 issued on
August 12, 2004)

The objective of this audit was to assess the beneficiary’s compliance
with the rules and regulations of the USF program and to identify pro-
gram areas which may need improvement. Annunciation Elementary
School (AES) is a Catholic school located in New York City. AES was
approved for a 90% discount rate for Funding Years (FY) 1998-1999
and 2000-2001. The period of our audit was for FYs 1998 through
2001, covering January 1, 1998 to June 30, 2002. We concluded that
AES was not compliant with E-rate program rules and regulations and
identified $129,003 as potential fund recoveries. The audited resulted
in six (6) specific findings. The findings are as follows:

      1. AES signed contracts for internal connections and Internet ac-
         cess prior to the 28 day waiting period, resulting in a potential


                                    21
                            Audits
          funding recovery of $109,175 or 100% of funds disbursed for
          FY 1999.
     2.   The service provider billed and received payment for Internet
          access costs that were not provided, resulting in overpayment
          of $19,704.
     3.   Internal connections equipment units were not provided and
          unauthorized substitutions were made resulting in overpay-
          ments of $4,498.
     4.   The service provider billed and received payment for ineligible
          internal connections equipment resulting in overpayments of
          $3,942.
     5.   There was no documentation of a competitive bidding process.
     6.   AES was unable to provide support for the calculation of the E-
          rate program discount.

As an “Other Matter”, we noted that the system we observed at AES ap-
peared to be ineffectively utilized. Furthermore, we found that the tech-
nology plan for AES was approved and used for four (4) years while
USAC procedures indicate that technology plans should not exceed three
(3) years.

We recommend that the Wireline Competition Bureau and Universal Ser-
vice Administration Company recover the amount of $129,003 disbursed
on behalf of AES in funding year 1999. In addition, we have recom-
mended that WCB and USAC take the necessary steps to review funding
requests and program rules to adequately protect the interests of the
fund.

9. Report on Fiscal Year 2004 Federal Information Security Man-
agement Act (FISMA) Evaluation and Risk Assessment (Audit Re-
port No. 04-AUD-06-08 issued on September 20, 2004)

The Federal Information Security Management Act (FISMA) focuses on
the program management, implementation, and evaluation aspects of
agency security systems. FISMA requires that Inspectors General, or
the independent evaluators they choose, perform an annual evaluation
of each agency’s information security program and practices. We con-


                                   22
                           Audits
tracted with KPMG, LLP to perform the independent evaluation.

On September 20, 2004, we issued a report entitled “FY 2004 Federal
Information Security Management Act (FISMA) Evaluation and Risk As-
sessment,” summarizing the results of our independent evaluation. In
our determination, the FCC continues to demonstrate a commitment to
protecting federal information resources and data of the Commission.

During the independent evaluation, we identified areas for improve-
ment in the FCC’s information security management, operational and
technical controls. The evaluation identified one new finding in the
area of operational controls. Additionally, we determined that eight
of the conditions identified during the FY 2002 and FY 2001 Govern-
ment Information Security Reform Act (GISRA) evaluations had not
been fully corrected at the time of the audit fieldwork. As a result, we
are addressing the conditions identified during this audit. Our recom-
mendations will correct present problems and minimize the risk that fu-
ture security problems will occur in the FCC’s information security pro-
gram.

As a result of the independent evaluation, we have concluded that the
Commission has a generally effective information security program with
acceptable practices for managing and safeguarding the FCC’s informa-
tion technology assets. On August 31, 2004, we provided a draft to
the Office of Managing Director (OMD) for review and comments. In its
response dated September 17, 2004, OMD indicated concurrence with
the one new finding in FY 2004, and seven of the eight conditions iden-
tified during the FY 2002 and FY 2001 GIRSA evaluations. For all find-
ings, OMD outlined the corrective action taken and/or a milestone
schedule for implementation of corrective action.

10. Flexible Work Schedule Survey (Audit Report No. 04-AUD-
10-22 issued on September 27, 2004)

This project was conducted as a survey. The rationale behind this sur-
vey was to test policies and procedures of the Flexible Work Schedule
and the employee’s compliance with those procedures. This survey


                                   23
                           Audits
had two objectives: (1) Examine the FCC’s internal controls by assess-
ing the policies and procedures issued by the Commission regarding
the Flexible Work Schedule (FWS) and, (2) Test employee compliance
with FWS policies and ascertain whether employees are claiming credit
hours they are not working.

Based on the results of this survey, we found a significant number of
employee non-compliances with policies and procedures. We have
identified instances of potential abuse, and determined that an audit of
the Commission’s payroll management and financial controls is war-
ranted. Accordingly, we have initiated an audit to determine whether
timekeeping abuse is occurring on a wide-scale basis and examining
the Commission’s related payroll management and financial controls.

11. Report on Audit of the Federal Communications Commission
Transit Benefit Program (Audit Report No. 04-AUD-02-02 is-
sued on September 27, 2004)

The OIG initiated an audit of the Commission’s Transit Benefit Program
(TBP) as part of its annual audit plan and in response to FCC manage-
ment concerns of a possible increased risk of waste, fraud, or abuse
due to the increase in allowable monthly reimbursements from $65 to
$100 on January 1, 2002.

The objective of this audit was to assess the policies and procedures
issued by the Commission for the transit subsidy benefit program for
compliance with applicable regulations and union agreements, testing
the Commission’s internal controls for compliance with the Commis-
sion’s internal controls for compliance with the program requirements,
testing employee compliance with program participation requirements,
and reaching an overall opinion as to the program’s control system and
compliance with requirements and identifying areas where operational
improvements can be made.

In our opinion, the Commission’s TBP is in compliance with the govern-
ment’s transit benefit rules and regulations. We did not find indica-
tions of significant abuse by benefit recipients from our random and


                                   24
                            Audits
judgmental samples. However, we did find that the Commission’s TBP
policies and procedures are not adequate. We found that the Commis-
sion relies on Appendix D of the labor bargaining agreement between
the FCC and the NTEU as the policies and procedures for operating its
TBP. Appendix D is very general and does not provide detailed guid-
ance to administrators or transit benefit recipients.

As a result, we have identified four recommendations to address the
finding. They are as follows:

      1. Design more comprehensive TBP policies and procedures.
      2. Make the policies and procedures available on the FCC intra-
         net site.
      3. Establish formal notification procedures for communicating
         and Program changes or issues.
      4. Require the Transit Benefit Coordinator to conduct random or
         regular checks of employee information.

Commission management concurred with our recommendations and
outline procedures for implementing each recommendation. This will
provide the framework for complying with and administering the Pro-
gram and significantly reduce the risk of waste, fraud, and abuse.

12. Physical Security of Enforcement Bureau Facilities and
Monitoring Stations (Audit Report No. 03-AUD-07-10 issued
September 29, 2004)

The objectives of this review were to assess the physical security pos-
ture of the Enforcement Bureau (EB) and Monitoring Station Facilities
and to ensure security upgrades complied with Federal recommenda-
tions and other applicable regulations and standards. To accomplish
this audit, our office has contracted with the consulting firm of Job Per-
formances Systems, Inc. (JPS). The purpose of this review was to de-
termine whether EB facilities had identifiable vulnerabilities and oppor-
tunities for improvement in the FCC’s physical security posture. Over-
all, positive security controls were in place at EB facilities. It was evi-
dent that EB took proactive measurements to ensure the safety and
security of the employees, property, and other assets of the Commis-

                                    25
                           Audits
sion. We also identified areas of improvement for the security controls
over EB field sites. Eight (8) specific conditions for improvement have
been identified as follows:

  1.   Attacks at Two or More DF Sites Endanger the Entire Program
  2.   Lack of Formal DF Site Physical Security Standards.
  3.   Security Issues at the Santa Isabelle DF Site
  4.   Dummy Camera in the Atlanta Field Office
  5.   Unlocked Roof in the Atlanta Field Office
  6.   EDG Forklift Training
  7.   EDG Safety Issues
  8.   Asbestos in the Buffalo Resident Agent Office Building

We recommend that the findings we identified be corrected to
strengthen the Commission’s physical security program. Our recom-
mendations will correct present problems and minimize the risk that fu-
ture security problems will occur. All open findings will be tracked for
reporting purposes.

13. Audit Finding Notification—Lack of Adequate Facility Mainte-
nance in the Anchorage Field Office (Issued on September 30,
2004)

In May 2004, OIG visited the Commission’s Anchorage field office as
part of the fiscal year 2004 financial statement audit and identified
some facility maintenance issues unrelated to the objectives of the fi-
nancial statement audit. Still, these issues needed to be brought to
management’s attention. The Anchorage facility is showing evidence of
neglect, which may put the safety of our employees at risk and discour-
age potential tenants.

The Anchorage field office has only two (2) resident agents occupying a
building that once operated as a 24-hour monitoring station with thir-
teen (13) FCC staff. Most of Anchorage’s office space is unoccupied
and building maintenance appears to be severely neglected. The two-
person staff has neither the time nor the necessary equipment to main-
tain the building as is needed. We have identified three (3) areas that


                                   26
                           Audits
are in need of maintenance and have made recommendations to man-
agement accordingly. The agency concurred with our recommenda-
tions and intends to take actions to remedy the situation.

IV. Work-In-Process Reports on the following audits that were
not completed as of the date of the publication of this report.

In our previous Semiannual Report (for the six month period ending
March 31, 2004) we reported seven audits and one survey in process
as well as our on-going contracting services. Of the seven open audits,
four have been completed.

The following audits and survey remain in process:

1. FY 2004 FISMA Evaluation

The Federal Information System Management Act (FISMA) focuses on
the program management, implementation and evaluation aspects of
agency security systems. A key provision of the legislative require-
ments is that the Inspector General perform an annual independent
evaluation to examine the Commission’s security program and prac-
tices for major applications. To accomplish this objective we will test
the effectiveness of security controls for an appropriate subset of the
Commission’s systems. In addition, we will use the Security Act assess-
ment tool to evaluate the effectiveness of the Commission’s information
security program and assess risk for each component of the program.

2. Continuity of Operations (COOP) Audit

In the post 9/11 environment, contingency planning and business
continuity are critical. In 2002, the FCC began to develop and business
continuity plans. The objective of this audit is to determine the
progress of FCC’s contingency planning and business continuity
program and the determine if the FCC has a useable and viable pro-
gram. This review will provide the Chairman with an independent and
comprehensive analysis on the current posture off the FCC’s business
continuity program.


                                   27
                           Audits
3. Audit of the Commission’s FY 2004 Financial Statement

The FCC is a covered agency under the Accountability of Tax Dollars
Act of 2002. As a covered agency, FCC prepares financial statements
in accordance with generally accepted accounting principles per the
Government Management Reform Act (GMRA) of 1994 which amended
the Chief Financial Officers Act (CFO Act) of 1990 to require annual
preparation and audit of organization-wide financial statements.

This audit will be performed as part of our commitment to support
management’s efforts to align the FCC’s financial accounting and re-
porting systems with related accounting principles, federal laws and
regulations, and policy guidelines. This is not only important internally
to the FCC’s operations, but is also necessary to the audit of the Con-
solidated Financial Statements of the United States. The objective of
this audit is to provide an opinion on the FY 2004 financial statements.

In accordance with the Accountability of Tax Dollars Act of 2002, FCC
prepares consolidated financial statements in accordance with Office of
Management and Budget (OMB) Bulletin No. 01-09, Form and Content
of Agency Financial Statements, and subjects them to audit. The Chief
Financial Officers Act of 1990 (Public Law 101-576 referred to as the
“CFO Act”), amended, requires the FCC OIG, or an independent exter-
nal auditor as determined by the Inspector General, to audit agency fi-
nancial statements in accordance with Government Auditing Standards
issued by the Comptroller General of the United States. Under a con-
tract monitored by the OIG, CG-LLP, an independent accounting firm, is
performing the audit of FCC’s FY 2004 financial statements.

At the close of this semi-annual period, CG-LLP and OIG auditors have
substantially completed comprehensive planning and recently initiated
interim testing of internal controls. Interim substantive testing is
planned for the March 31 and June 30 submissions to OMB. The OIG
expects to issue the Independent Auditors’ Reports in the first quarter
of FY2005 in accordance with the accelerated year-end financial state-
ment submission date of November 15, 2004.


                                    28
                           Audits
4. Survey of Fee Collections

The objective of this survey is to examine the Commissions fee collec-
tion process to determine whether we can reasonably assure that all
applicable licensing and regulatory fees are being collected. The OIG
will review both manual and automated controls over the fee collection
process. We will also attempt to decide if a viable process exists to de-
termine if all licenses have paid their applicable fees.

5. FY 2004 North American Numbering Plan Administration
(NANPA) and Thousands Block Pooling Systems Transfer Viabil-
ity Audit

The objective of these two audits is to determine whether the NANPA
and Thousands Block Pooling systems, including all associated software
and hardware, are in compliance with contract terms for portability
should NANPA administrators change. An audit is necessary to ensure
that the software which is FCC property can be moved with little or no
disruption should another contractor be awarded the contract when it is
recompeted.

6. Audits of Contractor Timekeeping Systems

The objectives of these audits are to: 1) evaluate the adequacy and
effectiveness of the contractor’s internal controls and procedures to en-
sure the reliability of employee time records and 2) perform a physical
observation of contractor work areas to determine that employees are
actually at work, that they are performing in the assigned job classifi-
cation and that the time is charged to the appropriate job. Timekeep-
ing system audits are in progress for four FCC contractors at the cur-
rent time.

7. Audit of Contracts and Purchasing

The audit will provide the Commission with an independent and com-
prehensive evaluation and assessment of the activity. The primary ob-


                                    29
                           Audits
jectives of this audit are to determine whether or not the Commission:
(1) solicits, awards and administers contracts in accordance with Fed-
eral and Commission requirements; (2) ensures that expenditures are
reasonable and necessary; (3) ensures that purchases are under con-
tract when warranted; (4) funds, lets and administers contracting ac-
tivities in an economic and efficient manner; and (5) performs, or has
the expertise to perform, appropriate oversight of contractor activities
and operations.

8. Review of the Integrated Spectrum Auctions System (ISAS)

ISAS is planned to be the replacement for the Automated Auctions Sys-
tem (AAS). The objectives of this review are to: (1) monitor and assess
compliance of ISAS with the Commission’s systems development life
cycle (SDLC); (2) establish if effective security controls have been de-
signed and built into ISAS; and (3) determine that the ISAS project has
not experienced any significant cost overruns, unanticipated expendi-
tures, and project delays.

9. Audit of Network Infrastructure Controls

This review is being conducted as part of our examination of the FCC’s
security posture. The objective of this work is to determine the extent
and effectiveness of security controls over the FCC’s network infra-
structure. It encompasses a review of major categories of general con-
trols associated with the network security such as access controls, ser-
vice continuity, and security program planning and management.

10. Audit of Wireless Network Controls

This review is being conducted to provide an independent and compre-
hensive analysis of the information security posture of the FCC’s wire-
less network. It encompasses an evaluation of the efficacy of wireless
network security controls, including access controls, use of passwords,
application audit trails, and change controls. Controls of selective FCC
and non-FCC systems that exchange information with wireless systems
are included in the scope of the review.


                                   30
                           Audits
11. Vendor Master Survey

This review is being conducted to prevent fraud in the accounts payable
payment process. The objective is to identify vendors who have both
post office boxes and street addresses, then to verify that the post of-
fice box belongs to the particular company’s street address.

12. Mailroom Safety and Security

This review is being conducted as part of our examination of the FCC’s
security posture. The objective of the review is to identify vulnerabili-
ties and opportunities for improvement in the safety and security of the
FCC’s mail room operations.

13. Prompt Pay Audit

The objective of this audit is to determine whether the Commission’s
policies and procedures comply with the Prompt Pay Act by: (1) paying
bills on-time, remitting interest penalties when payments are made
late, assuring that goods and services are paid for when received, and
taking discounts that are advantageous to the government; (2) accu-
rately reporting payments and progress made with respect to comply-
ing with the Act; and (3) assessing the reliability of its payment proc-
ess.

14. Payroll Management and Financial Controls Audit

The purpose and objective of the audit is to document, review and test
the payroll process ; documenting key internal controls over payroll
and related areas; testing key controls and ensure transactions re-
corded in the payroll system are supported by appropriate pay-
affecting documents and that costs are charged to the right program;
performing separate tests on leave and earnings data; and assessing
risk of errors or other problems in recording, reviewing and reconciling
payroll transactions.




                                   31
                          Audits
15. Draft Report on the Cable Operations & Licensing System
(COALS) Security Survey (Draft Audit Report No. 04-AUD-09-16
issued on August 31, 2004)

The objectives of this review are to: (1) review password and login se-
curity protocols for the COALS application to insure unwanted entry at-
tempts are denied; and (2) to determine if the current security meas-
ures comply with FCC Computer Security Program Directive 1479.2 and
OMB “E-Authentication Guidance for Federal Agencies” Memorandum
M-04-04. Our survey initially disclosed several positive observations on
COALS security and has identified one finding.

16. Draft Report on Follow Up to the Audit of Web Presence Se-
curity (Draft Audit Report No. 03-AUD-09-21 issued on August
31, 2004)

The objective of this follow-up audit was to determine the current
status of conditions identified in Audit Report No. 00-AUD-01-10, enti-
tled “Audit of Web Presence Security” that was issued on June 13,
2001. Recommendations have been made to the Wireless Telecommu-
nications Bureau and the Office of Managing Director to prepare a re-
sponse to the recommendations.

17. Draft Report on Physical Security Review of Gettysburg Site
(Draft Audit Report No. 03-AUD-07-10-1 issued on September
28, 2004)

The objectives of this review were to obtain and verify the status of the
physical security posture at Gettysburg and to identify security up-
grades to ensure required compliance with Federal recommendations
and other applicable regulations and standards. It was evident that the
Gettysburg office placed a high value on the safety and security of its
employees, facilities and other assets. Most recommendations that had
been listed in the Gettysburg Site Interim Physical Security Review, au-
dit report number 02-AUD-03-11, dated October 28, 2003, had been
resolved. Specifically, safety issues, issues with locks and security dur-
ing construction had been resolved. However, four (4) findings were


                                   32
                           Audits
identified. We recommend that the findings identified be corrected to
strengthen the Commission’s physical security program.

18. Audit of the FCC’s Auction-Related Accounting

The Omnibus Budget Reconciliation Act of 1993 authorized the FCC to
auction licenses for the use of portions of the electromagnetic spec-
trum. In addition to providing the Commission with this authority, the
legislation authorized the Commission to retain a portion of the auction
revenues to recover the costs in developing and implementing the auc-
tions program. The objectives of this audit are to identify possible du-
plicative activities in both FCC’s auction-related accounting and FCC’s
appropriated accounting, and to evaluate the Annual Auctions Expendi-
ture Report submitted to Congress in relation to the Reports Consolida-
tion Act of 2000.

19. Audit of Loan Portfolio and Related Activity

The Commission has a loan portfolio comprised of approximately 2,000
installment loans. In recent years, the portfolio received increased
scrutiny due to its materiality on the FCC’s financial statements. Sev-
eral recent changes affect the internal control associated with FCC’s
loan activity. In FY 2000 FCC contracted with a loan service provider to
manage and maintain its loan portfolio. In addition, FCC developed
and partially implemented the Revenue Accounting and Management
Information System (RAMIS) which was originally represented to OIG
to become the system of record for FCC’s loan activity in the future.
During this time, the Financial Operations office reorganized and reas-
signed responsibilities impacting the loan environment. The primary
objective of this audit is to assess the transition of the loan portfolio
from the FCC to a loan service provider environment. This audit has
been delayed by the FCC’s inability to transition the loan activities to
the service provider. This action has only been recently completed.




                                   33
                            Audits
20. Survey of the Universal Service Fund (USF) High Cost Pro-
gram

In Calendar Year 2003, the USF High Cost Program disbursed $3.27 bil-
lion in support to telecommunication carriers in high cost/rural service
areas. The program has not been subjected to a comprehensive pro-
gram of audit and oversight by this office. We have initiated an audit
survey of this program to identify areas of risk, potential vulnerabilities
and compliance with program requirements and regulations. The re-
sults of the survey will be used to design an oversight program to en-
sure that the High Cost Program is not subject to fraud, waste and
abuse.

21. Audit Support for USF Investigations

In addition to conducting audits, we are currently providing audit sup-
port to a number of E-rate recipients and service providers. Our level
of involvement in these investigations ranges from tracking and moni-
toring cases that are being investigated by state and local law enforce-
ment to activity providing audit support to the FBI and Department of
Justice (DOJ) investigators in the form of audits and limited scope re-
views. We are actively supporting 22 investigations and monitoring an
additional 15 investigations.

22. Audits of USF E-rate Beneficiaries

The objective of audits of E-rate beneficiaries is to evaluate beneficiary
compliance with program rules and requirements and to identify pro-
gram areas which may need improvement.

In January 2003 we executed a Memorandum of Understanding (MOU)
with the Department of Interior (DOI) Inspector General. Six audits
are in progress under this MOU. These include two audits of the De-
partment of the Interior Bureau of Indian Affairs, an audit of the United
States Virgin Islands Department of Education, and three audits of pri-
vate schools in the USVI as described below:



                                    34
                           Audits
22A. Draft Report on Audit of the E-rate Program at St. Joseph
High School, St. Croix, U.S. Virgin Islands (Draft Audit Report
No. R-GR-FCC-0008-2003 issued on September 1, 2004)

Our office has completed fieldwork for an audit of the E-rate program
benefits received by St. Joseph High School (the School), a beneficiary
of the Universal Service Fund (USF). The objective of this audit was to
assess the beneficiary’s compliance with the rules and regulations of
the USF program and to identify areas in which to improve the pro-
gram.

Our draft report has concluded that the School did not comply with key
requirements of the E-rate program for funding year 2000. Five (5)
findings were identified and $136,851 was found to be potential fund
recoveries. There were problems with the technology plan, the pay-
ment of the non-discounted portion, a failure to maintain records, and
the services for a planned local area network (LAN). We recommend
that the Wireline Competition Bureau (WCB) direct the Universal Ser-
vice Administration Company (USAC) to recover the amount of
$136,851 disbursed on behalf of St. Joseph High School in funding year
2000. In addition, we recommend that WCB and USAC take the neces-
sary steps to review program rules and procedures in order to prevent
future noncompliance in order to adequately protect the interests of the
fund.

22B. Draft Report on Audit of the E-rate program at St. Mary’s
Catholic School, St. Croix, U.S. Virgin Islands (Draft Audit Re-
port No. R-GR—FCC-0007-2003 issued on September 1, 2004)

Our office has completed fieldwork for an audit of the E-rate program
benefits received by St. Mary’s Catholic School (the School), a benefici-
ary of the Universal Service Fund (USF). The objective of this audit
was to assess the beneficiary’s compliance with the rules and regula-
tions of the USF program and to identify areas in which to improve the
program.




                                   35
                           Audits
Our draft report concluded that the School was not compliant with key
requirements of the E-rate program for funding year 2000. The audit
resulted in four (4) findings and $120,051 in potential fund recoveries.
There were issues with the technology plan, the payment of the non-
discounted portion, and record maintenance problems. We recommend
that the Wireline Competition Bureau (WCB) direct the Universal Ser-
vice Administrative Company (USAC) to recover the amount of
$120,051 disbursed on behalf of St. Mary’s Catholic School in funding
year 2000. In addition, we recommend that WCB and USAC take the
necessary steps to review program rules and procedures in order to
prevent future noncompliance in order to adequately protect the
interests of the fund.

22C. Draft Report on Audit of the E-rate program at St. Patrick
Catholic School, St. Croix, U.S. Virgin Islands (Draft Audit Re-
port No. R-Gr-FCC-0009-2003 issued on September 1, 2004)

Our office has completed an audit of the E-rate program benefits re-
ceived by St. Patrick Catholic School (the School), a beneficiary of the
Universal Service Fund (USF). The objective of this audit was to assess
the beneficiary’s compliance with the rules and regulations of the USF
program and to identify areas in which to improve the program. This
audit was conducted by the Department of Interior OIG for the FCC
OIG.

Our draft report concluded that the School was not compliant with key
requirements of the E-rate program for funding year 2000. The audit
resulted in five findings and $137,571 in potential fund recoveries.
There were issues with the technology plan, the payment of the non-
discounted portion, record maintenance problems, and the services for
a planned local area network (LAN). We recommend that the Wireline
Competition Bureau (WCB) direct the Universal Service Administrative
Company (USAC) to recover the amount of $137,571 disbursed on be-
half of St. Patrick Catholic School in funding year 2000. In addition, we
recommend that WCB and USAC take the necessary steps to review
program rules and procedures in order to prevent future noncompliance
in order to adequately protect the interests of the fund.


                                   36
                          Audits
In December 2003, we initiated an E-rate beneficiary audit of the Bre-
vard County School District location in Brevard County, Florida. This
audit is being conducted using FCC OIG resources.

In January 2004, Education OIG presented a plan for an audit of tele-
communication services at the New York City Department of Education
(NYCDOE). Because of the significant amount of E-rate funding for tele-
communication services at NYCDOE, Education OIG has proposed that
they be reimbursed for this audit under a three-way MOU similar to the
existing MOU with DOI OIG.

In August 2004, we collaborated with the Internal Audit Division of
USAC (USAC IAD) to initiate a body of E-rate beneficiary audits. The
audits are being done by auditors from KPMG LLP under their contract
with USAC. We are planning to conduct one-hundred audits as part of
this project.




                                  37
                Management
Specialized Training and Activities

In our continuing effort to expand the expertise of our audit staff, one
auditor attended the 10 day, non-criminal investigator training at the
Federal Law Enforcement Agency in Georgia.

Report Availability

The OIG audit and other types of reports can generally be obtained via
the Internet from the OIG web page located on the FCC website at
http://www.fcc.gov/oig. However, OIG reports containing sensitive or
proprietary information will be restricted to specific individuals and
organizations with a need to know the detailed information.

Internships

The OIG welcomes college interns during the fall, spring and summer.
Most of these students take their internships for credit. Recent interns
have come from schools across the country, including Hamilton College
UC Berkeley, UC Davis, American University, Georgetown University,
DePauw University, University of North Carolina, Xavier University, and
James Madison University.

These internships prove to be a rewarding experience for both parties.
Students leave with a good understanding of how a government agency
is run, and they have the opportunity to encounter the challenges
involved in governance and regulation. In turn, the office benefits from
the students’ excellent work performance that reflects their youth and
exuberance.




                                    38
                Investigations
OVERVIEW

Investigative matters pursued by this office are generally initiated as a
result of allegations received through the OIG hotline or from FCC man-
agers and employees who contact the OIG directly. Investigations may
also be predicated upon audit or inspection findings of fraud, waste,
abuse, corruption or mismanagement by FCC employees, contractors,
and/or subcontractors. Upon receipt of an allegation of an administra-
tive or criminal violation, the OIG usually conducts a preliminary in-
quiry to determine if an investigation is warranted. Investigations may
involve possible violations of regulations regarding employee responsi-
bilities and conduct, federal criminal law, and other regulations and
statutes pertaining to the activities of the Commission. Investigative
findings may lead to criminal or civil prosecution, or administrative ac-
tion.

The OIG also receives complaints from the general public, both private
citizens and commercial enterprises, about the manner in which the
FCC executes its programs and oversight responsibilities. All complaints
are examined to determine whether there is any basis for OIG audit or
investigative action. If nothing within the jurisdiction of the OIG is al-
leged, the complaint is usually referred to the appropriate FCC bureau
or office for response directly to the complainant. The OIG continues to
serve as a facilitator with respect to the Commission responding to
complaints that are outside the jurisdiction of this office. In many in-
stances where the nature of the complaint does not fall within the juris-
diction of the OIG, a copy of the response is also provided to the OIG.
Finally, matters may be referred to this office for investigative action
from other governmental entities, such as the General Accounting Of-
fice, the Office of Special Counsel or congressional offices.


ACTIVITY DURING THIS PERIOD

Forty-seven cases were pending from the prior period. Forty-two of
those cases involve the Commission’s Universal Service Fund (USF)


                                    39
                 Investigations
program and have been referred to the Federal Bureau of Investigation
(FBI) and/or the Department of Justice. An additional eleven non-USF
complaints were received during the current reporting period. Over the
last six months thirteen cases, five USF and eight non-USF related,
have been closed. A total of forty-five cases are still pending, of which
thirty-seven relate to the USF program. The OIG continues to monitor,
coordinate and/or support activities regarding those thirty-seven in-
vestigations. The investigations pertaining to the pending eight non-
USF cases are ongoing.

STATISTICS

Cases pending as of March 31, 2004…………………………………………….47

New cases..…………………………………………………………..11

Cases closed………………………………………………………….13

Cases pending as of September 30, 2004…………………….…………….45

SIGNIFICANT INVESTIGATIVE CASE SUMMARIES

•   The OIG initiated an inquiry into allegations of the possible abuse of
    authority by a Commission employee with regard to the rendering
    of an administrative decision denying a licensee’s request for an ex-
    tension for construction of a broadcast tower. Specifically, it was
    alleged that the employee who rendered the decision pursuant to
    delegated authority intentionally relied on false information in ren-
    dering the decision. The false information concerned the purported
    filing of a request or application with the Federal Aviation Admini-
    stration (FAA) for an aeronautical study by the recipient of a previ-
    ously issued FAA aeronautical clearance.

    A review of the matter indicated that the FAA erroneously notified
    the recipient that the previously granted clearance had expired. At
    that point it appeared that the recipient indicated that he wanted
    the clearance to remain in effect and the FAA initiated action to re-


                                    40
                 Investigations
    new the clearance, which entailed the performance of a new study.
    In rendering the decision, the employee interpreted language in
    FAA correspondence confirming the initiation of the new study to in-
    dicate that the licensee had precipitated the new study. While it was
    determined that the interpretation was in error, the OIG found insuf-
    ficient evidence to conclude that the employee intentionally used er-
    roneous information in rendering the decision. Consequently, no
    evidence of employee misconduct was found. Further, it was deter-
    mined that the information was not a determining factor in the deci-
    sion. Accordingly, the matter has been closed.
•   The OIG initiated an inquiry into the possible improper destruction
    and/or removal of information on a Commission computer work sta-
    tion. The matter is currently pending.
•   The OIG initiated an inquiry into the mailing of correspondence pur-
    portedly on Commission stationery to an officer with a local police
    department. It was determined that the correspondence was sent
    as a hoax by a colleague of the officer in question. Accordingly, the
    matter was closed.
•   The OIG initiated two inquiries into the release of non-public infor-
    mation with respect to the Commission’s consideration of matters
    related to spectrum allocation and spamming. The matters are cur-
    rently pending.
•   The OIG initiated an inquiry into allegations of the improper transfer
    of a radio license. Specifically, it was alleged that based on im-
    proper considerations by the Commission, a radio license transfer
    was approved. The alleged improper considerations included abuse
    of authority by the ignoring of oppositions to the transfer and expe-
    diting the transfer approval in violation of appropriate regulations.
    It was determined that the dispute stemmed from a contractual re-
    lationship that had been litigated in the courts. No evidence of em-
    ployee misconduct was found and the matter was closed.
•   The OIG initiated an inquiry into allegations of improper conduct by
    a Commission employee with respect to the processing of a con-
    sumer complaint. The matter is currently pending.
•   The OIG continues to coordinate and provide assistance to law en-
    forcement entities with respect to investigations pertaining to infrac-
    tions within the Universal Service Fund program of the Commission.


                                     41
                     Legislation
Overview

Pursuant to section 4(a)(2) of the Inspector General Act of 1978(IG
Act), as amended, our office monitors and reviews existing and pro-
posed legislative and regulatory items for their impact on the Office of
the Inspector General and the Federal Communications Commission
programs and operations. Specifically, we perform this activity to
evaluate their potential for encouraging economy and efficiency and
preventing fraud, waste, and mismanagement.


Legislative Activity During This Period

The Counsel to the IG continued to monitor legislative activities affect-
ing the activities of the OIG and the FCC.

During this period, this office continued to monitor legislation and legis-
latively related proposals, which directly or indirectly impact on the
ability of Designated Federal Entity IGs to function independently and
objectively. As previously noted, the office monitored the legislation
granting statutory law enforcement authority to certain designated
OIGs. This office was not among the designated OIGs under the legis-
lation. However, again as previously noted the legislation was moni-
tored with respect to any possible indirect impact that it may have on
this office’s operations. Under the legislation, there are peer review re-
quirements for the designated OIGs that may have an impact on the
non-designated OIGs. In this vein, this office continues to work with
and participate in discussions with other OIGs with respect to, among
other things, the voluntary implementation of a peer review process for
non-designated OIGs.




                                    42
                       IG Hotline
HOTLINE CALLS
During this reporting period, the OIG Hotline Technician received ap-
proximately 59 hotline calls to the published hotline numbers of (202)
418-0473 and 1-888-863-2244 (toll free). The OIG Hotline continues to
be a vehicle by which Commission employees and parties external to
the FCC can contact the OIG to speak with a trained Hotline Technician.
Callers who have general questions or concerns not specifically related
to the missions or functions of the OIG office are referred to the FCC
National Call Center (NCC) at 1-888-225-5322. In addition, the OIG
also refers calls that do not fall within its jurisdiction to such other enti-
ties as other FCC offices, federal agencies and local or state govern-
ments. Examples of calls referred to the NCC or other FCC offices in-
clude complaints pertaining to customers phone service and local cable
providers, long-distance carrier slamming, interference, or similar mat-
ters within the program responsibility of other FCC bureaus and offices.




                         Hotline Calls Record
                   April 1, 2004 - September 30, 2004




                 8%      4%                                 FCC Consumer
                                                            Hotline
                                               41%
                                                            Other Federal
                                                            Agencies
                                                            Other FCC
          47%                                               Offices
                                                            OIG Staff



                                      43
Report Fraud, Waste or Abuse to:


      Office of the Inspector General
      Federal Communications Commission




                                                 CALL
                                         Hotline: (202) 418-0473
                                                    or
                                             (888) 863-2244
                                            www.fcc.gov/oig



 You are always welcome to write or visit.
      ABC         OPER        ABC
        2          0           2


      GHI                     TUV
        4          1           8


 OPER       GHI        PQRS        DEF
  0          4           7          3

                   Federal Communications Commission
                            Portals II Building
                    445 12th St., S.W. –Room #2-C762

                                          44
               Specific Reporting Requirements
                 of the Inspector General Act

The following summarizes the Office of Inspector General re-
sponse to the 12 specific reporting requirements set forth in
Section 5(a) of the Inspector General Act of 1978, as amended.

1. A description of significant problems, abuses, and deficiencies relat-
   ing to the administration of programs and operations of such estab-
   lishment disclosed by such activities during the reporting period.

Refer to the Section of the semiannual report entitled “Universal Ser-
vice Fund” on pages 4 through 12.

2. A description of the recommendations for corrective action made by
   the Office during the reporting period with respect to significant
   problems, abused, or deficiencies identified pursuant to paragraph
   (1).

Refer to the Section of the semiannual report entitled “Universal Ser-
vice Fund” on pages 4 through 12.

3. An identification of each significant recommendation described in
   previous semiannual reports on which corrective action has not yet
   been completed.

No significant recommendations remain outstanding.

4. A summary of matters referred to authorities, and the prosecutions
   and convictions which have resulted.

No cases have been referred to the Department of Justice during this
reporting period.

5. A summary of each report made to the head of the establishment
   under section (6)(b)(2) during the reporting period.

No report was made to the Chairman of the FCC under section
(6)(b)(2) during the reporting period.



                                    45
                Specific Reporting Requirements
                  of the Inspector General Act

6. A listing, subdivided according to subject matter, of each audit re-
   port issued by the office during the reporting period, and for each
   audit report, where applicable, the total dollar value of questioned
   costs (including a separate category for the dollar value of unsup-
   ported costs) and the dollar value of recommendations that funds be
   put to better use. Each audit report issued during the reporting pe-
   riod is listed according to subject matter and described in part II,
   above.

7. A summary of each particularly significant report.

Each significant audit and investigative report issued during the report-
ing period is summarized within the body of this report.

8. Statistical tables showing the total number of audit reports with
   questioned costs and the total dollar value of questioned costs.

The required statistical table can be found at Table I to this report.

9. Statistical tables showing the total number of audit reports with rec-
   ommendations that funds be put to better use and the total dollar
   value of such recommendations.

The required statistical table can be found at Table II to this report.

10.A summary of each audit report issued before the commencement
   of the reporting period for which no management decision has been
   made by the end of the reporting period (including the date and title
   of each such report), an explanation of the reasons why such a
   management decision has not been made, and a statement concern-
   ing the desired timetable for achieving a management decision on
   each such report.

No audit reports fall within this category.

11.A description and explanation of the reasons for any significant re-
   vised management decision made during the reporting period.


                                    46
              Specific Reporting Requirements
                of the Inspector General Act

No management decisions fall within this category.

12.Information concerning any significant management decision with
   which the Inspector General is in disagreement.

No management decisions fall within this category.




                                  47
OIG Reports With Questioned Costs
Table I.
 Inspector Gen-
  eral Reports         Number of        Questioned   Unsupported
With Questioned         Reports           Costs         Costs
      Costs
  A. For which no
 management deci-
sion has been made
 during the report-       5             $2,302,846        -
        ing
      Period.
 B. Which were is-
sued during the re-
  porting period.         5             1,606,798         -

       Subtotals
         (A+B)            10            3,909,644         -
   C. For which a
 management deci-
sion was made dur-         -                -             -
  ing the reporting
       period.
(i) Dollar value of
 disallowed costs          -                -             -
(ii) Dollar value of
    costs allowed          -                -             -

  D. For which no
 management deci-
sion has been made        10            3,909,644         -
  by the end of the
 reporting period.
 Reports for which
no management de-
  cision was made          -                -             -
 within six months
     of issuance.
                                   48
            OIG Reports With Recommendations That Funds
                         Be Put To Better Use
Table II.
 Inspector General Reports
  With Recommendations              Number of Reports   Dollar Value
 That Funds Be Put To Bet-
           ter Use
 A. For which no management
 decision has been made by the
commencement of the reporting               -                -
            period.
B. Which were issued during the             -                -
       reporting period.

                     Subtotals              -                -
                       (A+B)
C. For which a management de-
cision was made during the re-
        porting period.                     -                -
   (i) Dollar value of recommen-
dations that were agreed to by
management.                                 -                -
   -Based on proposed manage-               -                -
ment action.
    -Based on proposed legisla-             -                -
tive action.
   (ii) Dollar value of recommen-
dations that were not agreed to
by management.                              -                -
  D. For which no management
  decision has been made by the
   end of the reporting period.             -                -
For which no management deci-
sion was made within six months
          of issuance.                      -                -

                                       49
